<html>
<title> - COMMUNITY DEVELOPMENT BLOCK GRANT-DISASTER RECOVERY PROGRAM-- STAKEHOLDER PERSPECTIVES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                      COMMUNITY DEVELOPMENT BLOCK
                    GRANT-DISASTER RECOVERY PROGRAM_.
                        STAKEHOLDER PERSPECTIVES

=======================================================================

                                 HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT
                           AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2018

                               __________

       Printed for the use of the Committee on Financial Services
      
                         Serial No. 115-93
                         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-457 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4225322d02213731362a272e326c212d2f6c">[email&#160;protected]</a> 

                         
                         

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
STEVAN PEARCE, New Mexico            GREGORY W. MEEKS, New York
BILL POSEY, Florida                  MICHAEL E. CAPUANO, Massachusetts
BLAINE LUETKEMEYER, Missouri         WM. LACY CLAY, Missouri
BILL HUIZENGA, Michigan              STEPHEN F. LYNCH, Massachusetts
SEAN P. DUFFY, Wisconsin             DAVID SCOTT, Georgia
STEVE STIVERS, Ohio                  AL GREEN, Texas
RANDY HULTGREN, Illinois             EMANUEL CLEAVER, Missouri
DENNIS A. ROSS, Florida              GWEN MOORE, Wisconsin
ROBERT PITTENGER, North Carolina     KEITH ELLISON, Minnesota
ANN WAGNER, Missouri                 ED PERLMUTTER, Colorado
ANDY BARR, Kentucky                  JAMES A. HIMES, Connecticut
KEITH J. ROTHFUS, Pennsylvania       BILL FOSTER, Illinois
LUKE MESSER, Indiana                 DANIEL T. KILDEE, Michigan
SCOTT TIPTON, Colorado               JOHN K. DELANEY, Maryland
ROGER WILLIAMS, Texas                KYRSTEN SINEMA, Arizona
BRUCE POLIQUIN, Maine                JOYCE BEATTY, Ohio
MIA LOVE, Utah                       DENNY HECK, Washington
FRENCH HILL, Arkansas                JUAN VARGAS, California
TOM EMMER, Minnesota                 JOSH GOTTHEIMER, New Jersey
LEE M. ZELDIN, New York              VICENTE GONZALEZ, Texas
DAVID A. TROTT, Michigan             CHARLIE CRIST, Florida
BARRY LOUDERMILK, Georgia            RUBEN KIHUEN, Nevada
ALEXANDER X. MOONEY, West Virginia
THOMAS MacARTHUR, New Jersey
WARREN DAVIDSON, Ohio
TED BUDD, North Carolina
DAVID KUSTOFF, Tennessee
CLAUDIA TENNEY, New York
TREY HOLLINGSWORTH, Indiana

                     Shannon McGahn, Staff Director
              Subcommittee on Oversight and Investigations

                    ANN WAGNER, Missouri, Chairwoman

SCOTT TIPTON, Colorado, Vice         AL GREEN, Texas, Ranking Member
    Chairman                         KEITH ELLISON, Minnesota
PETER T. KING, New York              EMANUEL CLEAVER, Missouri
PATRICK T. McHENRY, North Carolina   JOYCE BEATTY, Ohio
DENNIS A. ROSS, Florida              MICHAEL E. CAPUANO, Massachusetts
LUKE MESSER, Indiana                 GWEN MOORE, Wisconsin
LEE M. ZELDIN, New York              JOSH GOTTHEIMER, New Jersey
DAVID A. TROTT, Michigan             VICENTE GONZALEZ, Texas
BARRY LOUDERMILK, Georgia            CHARLIE CRIST, Florida
DAVID KUSTOFF, Tennessee
CLAUDIA TENNEY, New York
TREY HOLLINGSWORTH, Indiana
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    May 17, 2018.................................................     1
Appendix:
    May 17, 2018.................................................    29

                               WITNESSES
                         Thursday, May 17, 2018

Costello, Stephen, Chief Resilience Officer, Office of the Mayor, 
  City of
  Houston........................................................     5
Ellis, Hon. Rodney, Commissioner, Harris County, Texas...........     7
Lagrone, Heather, Deputy Director, Texas General Land Office.....     9
Martin, Carlos, Senior Fellow, Metropolitan Housing and 
  Communities Policy Center, Urban Institute.....................    11
McFadden, Marion Mollegen, Vice President, Public Policy, 
  Enterprise Community Partners, Inc.............................    12

                                APPENDIX

Prepared statements:
    Costello, Stephen............................................    30
    Ellis, Hon. Rodney...........................................    32
    Lagrone, Heather.............................................    36
    Martin, Carlos...............................................    40
    McFadden, Marion Mollegen....................................    52

 
                      COMMUNITY DEVELOPMENT BLOCK
                   GRANT-DISASTER RECOVERY PROGRAM--
                        STAKEHOLDER PERSPECTIVES

                              ----------                              


                         Thursday, May 17, 2018

                     U.S. House of Representatives,
                                  Subcommittee on Oversight
                                        and Investigations,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2128, Longworth House Office Building, Hon. Ann Wagner 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Wagner, Tipton, Zeldin, Trott, 
Loudermilk, Kustoff, Tenney, Green, Cleaver, Beatty, and 
Gonzalez.
    Also present: Representative Hill.
    Chairwoman Wagner. The Subcommittee on Oversight and 
Investigations will come to order.
    Today's hearing is entitled, ``Community Development Block 
Grant-Disaster Recovery Program--Stakeholder Perspectives.''
    Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time.
    And, without objection, members of the full committee who 
are not members of this subcommittee may participate in today's 
hearing for the purpose of making an opening statement and 
questioning our witnesses.
    The Chair now recognizes herself for 4 minutes for an 
opening statement.
    The Committee Development Block Grant-Disaster Recovery 
Program, CDBG-DR, provides communities much-needed access to 
resources in order to rebuild in the wake of natural disasters. 
Today's hearing, which is appropriately titled ``Stakeholder 
Perspectives,'' is the second CDBG-DR oversight hearing held by 
this subcommittee in the 115th Congress.
    Members of the subcommittee will hear testimony on the 
challenges that exist with the CDBG-DR Program in its current 
form and discuss actions Congress might consider that increase 
both the accountability of appropriated funds and help to 
deliver them to affected communities.
    While Congress has recently appropriated over $35 billion 
in CDBG-DR funds for victims of storms primarily in Florida, 
Texas, and Puerto Rico, members of this subcommittee should 
demand that any dollar designated for disaster relief is being 
effectively spent on victims.
    In testimony before the subcommittee last November, the 
Acting Inspector General for Housing and Urban Development, 
HUD, noted that, while flexibility is important in the wake of 
disaster, CDBG-DR funds often go toward programs or recipients 
for whom they are not originally intended. The Acting IG 
indicated that HUD faces significant challenges in monitoring 
CDBG-DR funds provided to various grantees under its purview, 
in part because HUD, at times, waives certain program 
requirements, and grantees may have a lack of understanding of 
disaster assistance.
    The Acting IG also testified that victims of disaster may 
encounter a variety of challenges throughout the disaster 
assistance process, which include potential duplication of 
benefits, slow disbursement of the disaster-related funding, 
and delays in funding for low- and moderate-income citizens.
    While HUD has become a primary provider of disaster 
recovery, the program is not codified in statute. Instead, HUD 
uses more than 60 Federal Register notices to issue clarifying 
guidance, waivers, and alternative requirements to both its 
entitlement and State CDBG-DR programs to oversee at least 113 
active disaster recovery grants, which total more than $47 
billion. To put it bluntly, the disaster recovery program is a 
bit of a disaster.
    I am eager to hear testimony today that will discuss the 
value of codifying the program into statute because I strongly 
believe codifying a single disaster recovery program would 
provide a template or a framework for future disasters. It 
would reduce the over-reliance on the plethora of Federal 
Register notices and other informal forms of guidance for each 
disaster and speedy delivery of disaster assistance for 
grantees and, more importantly, for our disaster victims.
    Finally, I just want to take a moment to thank Ranking 
Member Green for his support in legislation that we have been 
working together on for a number of months. I look forward to 
furthering those discussions as well as hearing recommendations 
from our witnesses this morning.
    And, with that, I yield back the balance of my time, and I 
now wish to recognize my friend, the gentleman from Texas, Mr. 
Green, the Ranking Member for 5 minutes.
    Mr. Green. Thank you, Madam Chair. It is indeed a privilege 
to work with you on these projects.
    I also, and I think you will concur, think that we should 
thank our staffs. They have been working tirelessly to make 
sure that we cover all of our bases, and notwithstanding all of 
the effort, I am sure that there will be some things that we 
just won't be able to get to, but I am grateful that you have 
not only worked with me in a very coordinated fashion, but also 
you have embraced this hearing with a great degree of alacrity, 
and that means a lot to me.
    To the witnesses, I am grateful that you are here today. 
This is very important. We need to hear from you because you 
have had a hands-on experience with these events, these natural 
disasters, if you will, and it is important that we hear from 
you about these things.
    I think for the people who may be watching us at home, it 
is important for me to say that this is not, n-o-t, this is not 
a ``how much'' hearing. And I am saying this because many 
times, after hearings, I will have persons who will ask me, 
``Why didn't you bring up something that was important,'' as it 
relates to them. And there are many people who want to know how 
much money will we allocate, how much can they expect; and this 
is not a ``how much'' hearing.
    This is more about how shall we; how shall we deliver what 
the Congress appropriates? Shall there be a paradigm that has 
reasonable expectations codified within it such that 
municipalities, counties, States, can have a reasonable 
expectation as to how to proceed so that they can have an 
efficacious result.
    This is an important hearing. It is exceedingly important 
that we understand some of the things that victims have had to 
endure, and I am sure some of you will have anecdotal evidence 
about the victims and how they have had to cope with certain 
circumstances over a prolonged period of time. I concur with 
the Chairwoman when she said that we want to make sure that we 
take care of the victims. The money should get to them, and it 
should get to them as expeditiously and efficiently as 
possible, and that is what she and I would like to see, and I 
fully support this.
    I also want to mention one other thing that is important 
that won't be a part of this hearing, and that is how HUD will 
handle things, how HUD handles the dollars. I am saying this to 
you in this sense. I know that HUD will be understaffed when we 
have these natural disasters, and there possibly is a need for 
HUD to staff up to meet the demands that are imposed when we 
have these circumstances, and that is something that we will 
have to deal with here in Congress. But I know, and I want 
people to know that I am concerned about this.
    I also want to mention direct funding. This is an issue 
that I have been grappling with. And in trying to find a way, 
trying to find a way to get the end beneficiary, those who have 
been victimized, how to get to them the dollars, the funding, 
the appropriations as quickly as possible, we have been 
grappling with the question of direct funding and how do you 
get that to a municipality, county, that can actually handle 
the dollars that will be sent.
    It is one thing to receive the dollars, and it is another 
thing to be able to account for them after they have been 
spent. That accounting process requires much more than a good 
many small-to medium-size municipalities can cope with. So we 
want to make sure that we don't impose upon some venues a 
process that they won't be able to manage effectively.
    And finally this: As we proceed with the hearing today, it 
is going to be very important that I, and others, that we give 
a good deal of concern, in my opinion, for those who not only 
live and thrive in the suites of life, but also those who live 
and survive in the streets of life.
    There are people in my city who go home to an overpass. 
There are people in my city who go home to a bed of bedrock. 
There are people in my city who are victimized by these 
disasters, these monsters, that don't have the opportunity to 
benefit to the extent that I think that they should from the 
taxpayer-funded aid. So I will be concerned about how we help 
those that I consider the least, the last, and the lost.
    With this, Madam Chair, I gladly yield to you, and I thank 
you so much for the time.
    Chairwoman Wagner. The Chair now recognizes the Vice Chair 
of the Oversight and Investigations Subcommittee, the gentleman 
from Colorado, Mr. Tipton, for 1 minute for an opening 
statement.
    Mr. Tipton. Thank you, Chairwoman Wagner, and appreciate 
you holding a hearing on today's important topic, and 
appreciate the comments made by the Ranking Member, that it is 
not only the dollars but the accountability of those dollars.
    In my home State of Colorado, Community Development Block 
Grants for Disaster Recovery have been used for flood and fire 
recovery programs. These programs address housing, 
infrastructure, planning, and economic development needs, and 
have proven to be effective tools in responding to the 
aftermath of a disaster.
    However, as effective as these dollars may have been in 
helping to meet the needs of post-disaster communities, we must 
be sure that we must practice the most prudent stewardship of 
taxpayer dollars. I look forward to the hearing and the witness 
testimony about how the CDBG-DR dollars have been administered 
in specific State examples and more generally across the 
country. I look forward to continuing to work with Chairwoman 
Wagner and the Ranking Member toward a solution that provides 
greater accountability. I yield back.
    Chairwoman Wagner. The gentleman yields back. We now 
welcome our witnesses, some who have come from a great deal of 
time and distance. The Chair now recognizes the Ranking Member 
from Texas, Mr. Green, to introduce today's first three 
witnesses.
    Mr. Green. Thank you again, Madam Chair. I see this 
opportunity to introduce the witnesses as a further indication 
of the bipartisanship that we have engendered. I am honored, 
Madam Chair, to introduce first Mr. Stephen Costello.
    Let me start by indicating that Houston, as you know, has 
had many unfortunate circumstances with rain, to the extent 
that he is affectionately known as the Flood Czar. His official 
title is the Chief Resiliency Officer for the city of Houston. 
He is a former city council member at-large. In Houston, we 
have single-member districts, and we have at-large seats. He 
was a person who represented the entirety of the city in his 
city council capacity.
    He is an engineer, civil. I was a person who attended 
school to become a mechanical engineer. It is my understanding 
that a mechanical engineer is a civil engineer with his brains 
beat out; so it is an honor to be in your company today.
    I also further understand that he has done something that 
can benefit all of us. He has worked with the Army Corps of 
Engineers, and of course, he is the cofounder of Costello 
Engineering and Surveying civil engineering firm.
    The next witness is someone that I have known for many 
years. He and I are proteges, if I may say so, of the Honorable 
Mickey Leland, who represented the 18th Congressional District 
from the State of Texas.
    He has worked with Lieutenant Governor Bill Harvey in the 
past. He was a law clerk to Chief Justice John Phillips, of the 
Third Court of Appeals. He has served on city council, having 
been elected at a very early age of 29. He has been elected to 
the Senate of the State of Texas. And he recently left the 
senate to become a county commissioner, one of the most sought-
after positions in Texas. People will leave Congress to become 
a county commissioner.
    And his name is, of course, Rodney Ellis, a very dear 
friend. Thank you. My chief of staff reminded me that you 
probably ought to mention his name, Congressman.
    Ms. Heather Lagrone, a person that we truly respect and are 
honored to have with us today because she is the person who 
works with the CDBG-DR, a slight tongue-twister for some of us, 
not all, but, in any event, the DR funds. And she works as a 
Deputy Director for the Community Development and 
Revitalization for the Texas Land Commission Office. This is a 
pretty important office in my life right now because they are, 
of course, dealing with the DR funds. And I must tell you, I 
think that they are going to do a great job. And I would like 
for her boss to know that we appreciate his efforts and what he 
is doing in this endeavor.
    She has a degree in urban geography from Texas A&M 
University. We are both Aggies in the sense that I went to 
Florida A&M University in Tallahassee. She has 15 years of 
experience with CDBG and the CDBG-DR programs. She manages the 
day-to-day operations--you can't have any more hands-on 
experience than that--of the program totaling over $3 billion.
    We are honored to have all three.
    And, Madam Chair, I yield back to you.
    Chairwoman Wagner. The gentleman yields back.
    Our final two witnesses for today's hearing are Carlos 
Martin and Marion McFadden.
    Dr. Martin is a Senior Fellow at the Urban Institute, where 
he leads research on the physical quality of housing and 
communities. As a trained architect and engineer, his area of 
expertise includes greenhousing, disaster mitigation, 
substandard housing, and construction work force.
    Ms. McFadden is Vice President of Public Policy at 
Enterprise Community Partners. Before her current position, she 
served as Deputy Assistant Secretary for Grant Programs at the 
U.S. Department of Housing and Urban Development from 2014 
through 2016, and oversaw affordable housing and community 
development programs, including the Neighborhood Stabilization 
Program, NSP, and the CDBG Disaster Recovery funds.
    The witnesses will now be recognized for 5 minutes to give 
an oral presentation of their testimony.
    And, without objection, the witnesses' written statements 
will be made part of the record following their oral remarks. 
Once the witnesses have finished presenting their testimony, 
each member of the subcommittee will have 5 minutes within 
which to ask questions.
    With that, Mr. Costello, you are now recognized for 5 
minutes.

                 STATEMENT OF STEPHEN COSTELLO

    Mr. Costello. Good morning, Madam Chair, and honorable 
committee members.
    My name, for the record, is Stephen Costello, and I am the 
Chief Resilience Officer for the city of Houston, and I am here 
today on behalf of our mayor, Sylvester Turner. Thank you for 
the opportunity to share my perspective regarding the Community 
Development Block Grant-Disaster Recovery Program.
    Before I address the specific topic, I do want to expand a 
little bit upon my resume that Congressman Green put forth. I 
have been in this business for over 40 years, starting in 1977 
as a civilian working for the Army Corps of Engineers. I come 
from private practice. I served on council for 6 years. I was 
the budget chairman for 5 of those 6 years, and I advocated for 
investment in infrastructure and was instrumental in the 
passage of Renew Houston, an $8 billion, 20-year infrastructure 
funding investment for drainage improvements.
    In 2015, facing term limits, I unsuccessfully ran for mayor 
against my current mayor, Mayor Turner. During the early months 
of Mayor Turner's tenure, I was honored for his consideration 
for the possibility of my return to the city. During this time, 
the city experienced what we commonly call the Tax Day Flood, 
April 2016, the third massive flood in less than 18 months. As 
a result, I decided to join the mayor's staff as the chief 
resiliency officer, and he tasked me with the role of working 
primarily on flooding and drainage. Even though my title is 
chief resilience officer, publicly he gave me the term Flood 
Czar, which everybody currently uses.
    Currently, my main duties are to interface with external 
agencies, county, State, and Federal agencies, as well as 
internal city departments on flooding and drainage projects.
    With respect to the topic under consideration by the 
subcommittee, I respectfully offer these comments based on 
recent experiences with Hurricane Ike and 2015 flood recovery 
funds. Upon assuming my current position, I was asked to assist 
in completing several infrastructure projects identified in the 
2008 Hurricane Ike Disaster Relief Action Plan. These projects 
are still ongoing and are expected to be completed in June 
2019, 12 years post the hurricane.
    Several reasons can be attributed to the delay. However, 
the primary issue is associated with the establishment flow of 
recovery funds from HUD to the State or the local metropolitan 
planning organization and, ultimately, down to the city.
    A more positive experience has demonstrated the success of 
direct allocation. In 2016, the city received $66.5 million, a 
direct allocation from HUD, for assistance in 2015 flood 
recovery. The approved action plan distributed the funds among 
infrastructure, home repair, housing buyout, and planning and 
administrative activities.
    In May 2017, Congress allocated an additional $20.5 million 
directly to the city for infrastructure and administrative 
expenses. Having the direct allocation of $87 million afforded 
the city the opportunity to expedite--and I want to repeat 
that--expedite projects in affected areas. For example, by 
working closely with our sister agency, Harris County Flood 
Control District, we have been able to leverage a housing 
buyout dollars and provide those funds to our sister agency to 
expedite the buyout in the city of Houston.
    Additionally, the city has leveraged funds by collaborating 
with another sister agency, Harris County Engineering 
Department, on drainage infrastructure projects in the Spring 
Branch area of the city of Houston, where both agencies will 
share in the cost of construction.
    Finally, two residential areas impacted by the 2015 flood 
where we had ongoing drainage projects, we were able to 
leverage additional HUD funds to increase the scope of the 
project and the size of the impacted area, which really was a 
tremendous impact to the project. This process, as of today, we 
anticipate expending all of the 2015 dollars within 3 to 5 
years; 3 to 5 years, as compared to 12 years for our Hurricane 
Ike recovery.
    The comparison of Ike recovery in 2015, flood recovery 
demonstrates how direct allocation has been more efficient for 
project delivery and completion as it removes multiple layers 
of involvement in the management of recovery funds. Still, it 
is important to recognize that the success of implementation of 
an action plan may also be attributed to the expertise of the 
recipient.
    The city of Houston is the fourth largest city in the 
United States, with a Public Works Department alone of over 
4,000 people with expertise related to disaster recovery and 
action plan implementation and project delivery. We understand, 
though, that there are much smaller municipalities that are 
impacted by floods where technical expertise is not readily 
available and could continue to benefit from the important role 
that the State or the local MPO plays.
    I want to thank you for the opportunity to testify before 
the Subcommittee on Oversight and Investigations this morning, 
and I look forward to future questions from Madam Chair and the 
committee members. Thank you.
    [The prepared statement of Mr. Costello can be found on 
page 30 of the Appendix.]
    Chairwoman Wagner. Thank you, Mr. Costello.
    Commissioner Ellis, you are now recognized for 5 minutes.

             STATEMENT OF THE HONORABLE RODNEY ELLIS

    Mr. Ellis. Thank you, Chairwoman Wagner, Ranking Member 
Green, and other members of the committee.
    My name is Rodney Ellis, and I am one of the five people on 
the governing board for Harris County. Our base city is 
Houston. It is the third largest county in the country.
    I learned years ago in the State legislature, if somebody 
said something that you want to say, you don't have to say it 
again. So I just want to reiterate three basic points.
    One, it will be helpful to extend the deadline for 
expediting funds to speed up delivery dollars. After Hurricane 
Ike, it took 2 years to begin repairing homes.
    Second, the Secretary may directly allocate funding to 
cities and counties. We want you to find a way to do anything 
you can to further remove bureaucratic hurdles that the 
committee considers a problem with direct allocation to 
entities that can handle the administrative workload. One 
suggestion, this is just from me, would be maybe entities that 
are above 2 million people, if they can handle the 
administrative workload--that is just an arbitrary number of 2 
million; at least I am not just trying to cover my county 
because we are approaching 5 million.
    Third, the 70 percent low-to-moderate income requirement 
has ensured that these dollars go to the communities most in 
need. I hope that you will consider leaving the discretion with 
the Secretary to lower that threshold to 50 percent. And I 
would encourage the committee to preserve that provision with 
the discretion of the Secretary.
    Within my precinct, from the latest event, disaster event, 
there were 24,000 structures that were flooded; tens of 
thousands of cars were lost; and many of my constituents are 
still struggling to get back on their feet.
    Across our entire region, including Houston and other 
communities, we were impacted severely. We had 80 deaths. More 
than a million people were displaced, and roughly 200,000 homes 
in the path were damaged stretching for more than 300 miles.
    CDBG-DR dollars are a vital aspect of bringing our region 
around, in the long term as well as the short term. State and 
local governments know what is best for them after a community 
has been impacted, and the CDBG-DR dollars will allow us to 
have a great deal of discretion in determining how to 
effectively respond to crises.
    After Hurricane Ike, Harris County received its housing 
contract on September 1, 2009, almost a year after Hurricane 
Ike. But we did not receive approval from the State of Texas to 
proceed with the program guidelines until September 1, 2010. 
Harris County's post-Ike home repair program took an average of 
3 years to complete all construction, and multifamily programs 
averaged 6 to 8 years. Infrastructure projects averaged 6 
years, including 6 months just to close out projects with the 
State of Texas. In fact, due to issues beyond the County's 
control, we still have two Hurricane Ike CDBG-DR projects under 
consideration nearly 10 years later, issues like lawsuits and 
other issues that will come up.
    I would encourage the committee to look at a direct 
allocation from the Secretary for disaster recovery funding for 
local governments with a population of a certain amount and 
administrative capability of a certain amount because it makes 
it easier for us to respond in a speedy fashion to people. And 
I think, at least privately, many of my colleagues with the 
State, who I worked with when I was a State Senator, and even 
now in county government, would agree, if a local community has 
the administrative capacity, it works better for both sides.
    Finally, I want to reiterate that 70 percent versus 50 
percent issue gently one more time. I know oftentimes it is 
easier for us to respond to the people who are loudest, and 
they tend to not be the people who are most in need.
    Last, I want to thank you again for that $35 billion on 
behalf of my community and all the communities in this country 
that were impacted. Thank you.
    [The prepared statement of Mr. Ellis can be found on page 
32 of the Appendix.]
    Mr. Tipton [presiding]. Thank you for your testimony, Mr. 
Ellis.
    Ms. Lagrone, you are now recognized for your 5 minutes.

                  STATEMENT OF HEATHER LAGRONE

    Ms. Lagrone. Good morning. Thank you for having me. Just 
for the record, I am Heather Lagrone. I am the Deputy Director 
for Community Development and Revitalization for the Texas 
General Land Office.
    Just as a reminder, on August 25, 2017, a strengthening 
category 4 Hurricane Harvey made landfall in Nueces County, 
Texas, between Port Aransas and Port O'Connor, with sustained 
winds of over 135 miles per hour. During this period, as much 
as 60 inches of rain fell over the 49-county impact area. 
Harvey slowly meandered its way north by northeast and finally 
dissipated on September 3.
    The Texas General Land Office (GLO) estimates the cost of 
the damages for Hurricane Harvey at over $120 billion, making 
it the costliest event in U.S. history. The hurricane shut down 
ports, trade, tourism, oil and gas production, agricultural 
production, and general business across the State's coast for 
almost a week and, in some cases, for significantly longer.
    The impact of these interruptions is difficult to quantify, 
but the effects of this disaster were felt across the Nation, 
with commodities such as gas, increasing in price by 33 cents a 
gallon in the weeks following Hurricane Harvey. The GLO 
estimates that over 1 million homes were impacted by Hurricane 
Harvey.
    On September 14, 2017, Governor Abbott designated 
Commissioner George P. Bush and his agency, the Texas General 
Land Office, to be the State's lead for short-term housing 
recovery with FEMA (Federal Emergency Management Agency) and 
long-term infrastructure and housing rebuilding through HUD. We 
continue this mission today. The short-term housing activities 
are wrapping up, and we are preparing to transition into long-
term recovery.
    On February 9, 2018, HUD allocated just over $5 billion in 
CDBG-DR funds to the State of Texas in response to Hurricane 
Harvey. That $5 billion allocation is from a $15 billion 
allocation that was appropriated by Congress on September 8, 
2017.
    The GLO has completed the action plan defining the uses of 
just over $2.7 billion from this allocation, and it is with HUD 
for their review and approval.
    First, I would like to thank Congress for how quickly the 
first funds were allocated for Hurricane Harvey's recovery. Two 
short weeks after Hurricane Harvey made landfall, over $7.4 
billion in CDBG funds had been allocated, but long-term 
recovery is a process that takes too long. There are some 
things that could be done that would shorten the process and 
allow impacted States to at least begin their recovery sooner, 
and I would like to share those with you now.
    States need to be allowed the maximum level of flexibility 
possible for disaster recovery efforts. Hurricane Harvey 
impacted 49 counties in an area larger than the State of 
Indiana in at least three different types of events. In the 
Coastal Bend area, Harvey was a true hurricane with wind speeds 
in excess of 130 miles per hour. In Houston, it was a rain 
event that created flooding that had never been seen. In 
southeast Texas, it dropped many feet of rain that did not 
drain for weeks to follow.
    The recovery needs to be tailored to the needs of each 
impact area and locally driven through a State oversight. HUD's 
formula allocated funds to population centers, and then the 
Federal Register all but required direct housing activities be 
considered over any other kind of need nearly 6 months after 
landfall.
    Requiring HUD to allocate funds from any appropriation 
within 60 days, as was done with the more recent allocation, 
would be encouraged to continue. This would allow States the 
funds to start their recovery, while data commonly used by HUD 
to allocate those funds can be finalized.
    Disasters do not discriminate, and HUD-defined higher 
income but still working class families are often equally 
impacted. HUD's recent shift away from waiving the LMI 
aggregate from 70 percent to 50 percent for disaster events 
will prevent communities from being able to recover in a 
holistic way. It has also made large-scale infrastructure 
projects that could mitigate large areas for future events very 
difficult.
    Historically, CDBG funds have provided grantees with 5 
percent in administrative costs. This value is generally 
adequate. However, HUD has continued to increase the level of 
oversight, reporting, and IT requirements on these awards. This 
is especially evident in allocations resulting in smaller, 
localized events.
    In this recent allocation, HUD limited the support of 
families who reside in a flood plain who made 120 percent of 
the area median income if they did not maintain flood 
insurance. The State is concerned that this could progress 
beyond just families located in the flood plain. As I said, 
disaster events do not discriminate, nor do they consider 
income.
    In Texas, we have many families residing outside the flood 
plain who thought they had all the appropriate insurance 
coverage necessary be impacted by flooding and lose everything. 
For a family of four living in Beaumont, Texas, 120 percent of 
the area median income would be $66,600, which is hardly enough 
income to recover from the complete loss of your home.
    Last, disaster recovery could be greatly expedited if HUD 
had written regulations that governed the supplemental CDBG-DR 
allocations. States would not have to guess at what regulations 
would be applicable from event to event, nor would they wait 
for the Federal Register to be published to begin a program and 
design of their action plans. At the GLO, we are currently 
managing seven CDBG-DR grants that have different rules and 
regulations.
    I have been involved in discovery recovery for the State of 
Texas since Hurricanes Katrina and Rita in 2005. I have to say, 
HUD has been a strong partner who has been very supportive of 
our recovery efforts, and we are offering these suggestions for 
improvement on the program that we have benefited greatly from 
in Texas. We believe that making these adjustments to the 
program could expedite recovery and utilize limited funding 
more efficiently.
    At this time, I would be glad to answer any questions.
    [The prepared statement of Ms. Lagrone can be found on page 
36 of the Appendix.]
    Chairwoman Wagner [presiding]. Thank you, Ms. Lagrone.
    Dr. Martin, you are now recognized for 5 minutes.

                   STATEMENT OF CARLOS MARTIN

    Dr. Martin. Good morning, Chairwoman Wagner, Ranking Member 
Green, and members of the subcommittee. Thank you for the 
opportunity to highlight the evidence base regarding 
stakeholders perspectives on CDBG-DR.
    My name is Carlos Martin, and I am a Senior Fellow at the 
Urban Institute. The views I express today are my own and 
should not be attributed to the Urban Institute, its trustees, 
or its funders.
    CDBG-DR has increased in importance within U.S. disaster 
response since its first use in 1993. This was demonstrated the 
by its inscription in the 2011 National Disaster Recovery 
Framework. The program also plays a unique role in that 
response by contextualizing recovery within longer term 
planning and housing needs.
    My research focuses on the State and local governments that 
receive program grants and, in turn, on their outcomes across 
households and communities. My colleagues and I have examined 
the many challenges State and local governments face. Among 
local factors that pose challenges are the predisaster capacity 
of the grantee staff, the severity of the disaster, and the 
clarity of a community's postdisaster goals.
    We have also looked at the nature of the program's 
authorized activities and regulations, separate from how HUD 
administers them. Two characteristics pose consistent 
challenges: One, the program's final position in the sequence 
of Federal postdisaster response; and, two, the program's lack 
of permanent statutory authority.
    Snapshots from this year's devastations echo what our 
research shows. Communities that have just experienced a 
disaster, like those in Texas, Florida, Puerto Rico, and 
California, are tasked with piecing together resources to put 
their residents, economies, and cultures back on their 
collective feet. Each set of those resources brings with it a 
slew of different requirements, regulations, and stakeholders 
that can test even the most sophisticated and well-resourced 
State and municipal officials.
    This is happening while jurisdictions have ongoing 
questions about the Federal assistance they have received so 
far, while they grapple with long-term goals, land use 
decisions, and infrastructure plans.
    The burden on State and local governments' capacity is 
particularly heavy at this point in their recovery. However, it 
is made heavier by the fact that they may not know the full 
regulatory parameters or the magnitude of the assistance that 
CDBG-DR provides. In some cases, after a disaster, they may not 
know whether Congress will appropriate that assistance and how 
to allocate it.
    As the Federal backstop for recovery, the program 
accommodates all previous programs' constraints, after many 
response and rebuilding decisions have already occurred and 
when communities' expectations are fraying.
    At its best, CDBG-DR is a bridge from the shock and chaos 
of disaster back to the path of prosperity and development on 
which all communities in the U.S. travel. Yet that bridge has 
always been temporary. Future disasters are certain. Equal 
certainty in the Federal response to these disasters will 
improve how our communities recover qualitatively and 
quantitatively.
    Thanks again for the opportunity to share my research. I 
look forward to the subcommittee's questions.
    [The prepared statement of Dr. Martin can be found on page 
40 of the Appendix.]
    Chairwoman Wagner. Thank you, Dr. Martin.
    Ms. McFadden, you are now recognized for 5 minutes.

              STATEMENT OF MARION MOLLEGEN MCFADDEN

    Ms. McFadden. Chairwoman Wagner, Ranking Member Green, and 
members of the subcommittee, thank you for the opportunity to 
testify in the CDBG-DR Program.
    I am Marion McFadden. I serve as the Vice President for 
Public Policy at Enterprise Community Partners, a nonprofit 
organization committed to making well-designed homes 
affordable. For more than 35 years, Enterprise has helped to 
build organizational capacity in both the public and private 
sectors. Last year, we harnessed $7.2 billion in capital to 
help create or preserve more than 60,000 homes.
    Enterprise has worked with communities to help rebuild from 
disasters since Hurricane Katrina, when we established an 
office on the Gulf Coast to assist in Louisiana and 
Mississippi's recovery. We assisted New Jersey and New York 
after Hurricane Sandy; supported the State of Colorado after 
severe flooding in 2013; and we are currently working on 
recovery initiatives in Texas, Florida, California, Puerto 
Rico, and the United States Virgin Islands.
    Personally, I worked on disaster recovery at HUD, dating 
all the way back to 9/11, including as legal counsel for the 
CDBG program and Deputy Assistant Secretary for Grant Programs, 
where I was directly responsible for administration of the 
CDBG-DR Program.
    Today, I would like to highlight three things: The 
importance of CDBG-DR to urban, suburban, and rural 
communities; the benefits of mitigating future risks; and 
opportunities to strengthen the CDBG-DR Program, making it more 
efficient and, thus, faster and less expensive for communities 
to recover.
    As the frequency and intensity of natural disasters have 
increased, CDBG-DR has become an essential component of long-
term recovery. After a major catastrophe, CDBG-DR is the 
difference-maker for families and small businesses. For 
property owners whose insurance proceeds, FEMA grants, and 
small business homeowner loans have been insufficient to repair 
their homes or get them to stable housing, CDBG-DR pays for 
repairs and rebuilding of apartment buildings. It allows small 
businesses to retool to meet the needs of a changed economy. 
CDBG-DR dollars repair damaged infrastructure and reopen 
hospitals, schools, and shopping centers.
    CDBG-DR is often used as leverage for private capital, as 
well as other public funds. For example, after Hurricane 
Katrina, Enterprise and our partners combined HUD grants with 
significant private capital to redevelop public housing through 
the use of the low-income housing tax credit.
    CDBG-DR is particularly valuable because it allows States 
and localities to rebuild in a forward-facing manner, 
rebuilding stronger and safer so that Federal dollars do not 
put people back in harm's way or throw good money after bad. 
Mitigation measures have been proven to more than pay for 
themselves, yielding an average of $6 in future disaster 
recovery costs for every dollar spent on mitigation.
    At Enterprise, we saw those savings firsthand last summer 
when a very heavy rainfall flooded New Orleans and residents 
found their streets waist-deep in water. Our CDBG-DR-funded 
Faubourg-Lafitte development escaped harm because homes were 
built an additional 2 feet above the base flood elevation. 
Water didn't breach the first floor, so there was no need to 
make a claim on the National Flood Insurance Program policy.
    While building 2 feet above the base flood elevation was 
not required at the time, HUD now wisely requires that level of 
elevation, and we recommend that Congress codify these 
standards for both CDBG-DR and for nondisaster funds.
    Finally, I would like to take a moment to highlight one 
major challenge with the CDBG-DR Program, which is the amount 
of time it takes for HUD funds to reach communities after a 
disaster. As you well know, after each unique CDBG-DR 
appropriation, there is a delay in the flow of funds because 
HUD must write a new set of waivers and requirements to guide 
grantees, in addition to assessing the damage and identifying 
unmet needs. Grantees then need to learn the new rules, make 
policy choices, and stand up their own disaster recovery 
programs before projects can even begin.
    The permanent authorization of CDBG-DR would allow HUD to 
write regulations, create pre-approved model housing programs, 
and develop systems that grantees could quickly customize and 
adopt to shorten the amount of time it takes to get people home 
again while increasing necessary protections against fraud, 
waste, and abuse.
    Permanent authorization could also solidify policies in 
areas that have previously been treated inconsistently. 
Enterprise recommends that Congress take the following steps in 
permanently authorizing the CDBG-DR Program: Better prepare 
communities to administer taxpayer dollars by expanding HUD's 
ability to support that administration. This can be 
accomplished by authorizing additional permanent career HUD 
staff dedicated full-time to disaster recovery work and through 
a set-aside for capacity building and technical assistance in 
all CDBG-DR appropriations.
    We ask that you also require HUD to allocate a portion of 
assistance within 60 days; direct HUD to design pre-approved 
model programs and systems that grantees can take off the shelf 
and implement wholesale; and ensure that grant funds reach 
those who need them most. More detail is provided in my written 
testimony.
    In closing, the Federal Government-impacted communities 
have learned important lessons from recent major recovery 
efforts, but change has been incremental. It needs to be 
swifter and more comprehensive. I look forward to working with 
you to accomplish that. Thank you.
    [The prepared statement of Ms. McFadden can be found on 
page 52 of the Appendix.]
    Chairwoman Wagner. Thank you, Ms. McFadden.
    The Chair now thanks all the witnesses for their opening 
statements, and I would like to recognize myself for 5 minutes.
    Ms. McFadden, I am going to jump around here a little bit, 
so please bear with me as I want to cover a few different 
topics. In my opening remarks, I mentioned that HUD primarily 
uses Federal Register notices to issue clarifying guidance and 
waivers and alternative requirements for the CDBG-DR Program. 
Given this statement, can you elaborate a little bit for the 
subcommittee about some of examples of how not having a law in 
statute has hurt potential grantees of CDBG-DR funds?
    Ms. McFadden. As Congress has passed laws over time, they 
have changed, so HUD has not made any efforts to do a guiding 
set of regulations because it hasn't had a single starting 
point. So, as each disaster appropriation is passed, HUD takes 
a look at the last set of rules but makes changes. Those 
changes may be influenced by a change in leadership or change 
in administration, or they may be influenced by lessons learned 
from previous disasters. But at no moment can a jurisdiction 
know what the next set of rules is going to include.
    Chairwoman Wagner. Moving on to duplication of benefits, 
how do the various agencies providing Federal assistance 
coordinate their efforts so that their funding isn't 
duplicated?
    For instance, how does HUD know whether SBA (Small Business 
Administration) provided assistance so that it does not 
duplicate funding?
    Ms. McFadden. So HUD primarily puts the responsibility on 
the grantees of funds, or the States, cities, and--
    Chairwoman Wagner. I am sorry. On whom?
    Ms. McFadden. The States, cities, and counties that are 
receiving the dollars then have a responsibility to coordinate 
with the SBA, with FEMA, potentially with insurance, 
philanthropic funds, and other places. There is no streamlined 
system available, and finding a way to share data more 
efficiently would absolutely speed up the delivery of 
assistance.
    Chairwoman Wagner. Delivery to victims.
    Ms. McFadden. Yes, ma'am.
    Chairwoman Wagner. Is there any hierarchical list of 
funding sources that allows agencies distributing disaster aid 
to know whether to provide money and when not to duplicate 
others' efforts?
    Ms. McFadden. The Stafford Act contains a hierarchy of 
assistance, but because the CDBG Disaster Recovery Program is 
essentially a one-off every time, it is not included in that 
hierarchy. Permanently authorizing CDBG would allow it to take 
a permanent place in that order of assistance.
    Chairwoman Wagner. Do you know if there is any statutory 
authority that describes the funding or delivery sequence at 
all?
    Ms. McFadden. Only in the Stafford Act, ma'am.
    Chairwoman Wagner. In the staff guide?
    Ms. McFadden. Excuse me. In the Stafford Act.
    Chairwoman Wagner. Stafford Act. I am sorry.
    Ms. McFadden. Which governs permanent disaster recovery 
authority.
    Chairwoman Wagner. One of the major themes that came out of 
our hearing with the Acting HUD IG was the lack of funding and 
the lack of staff at both HUD and the Inspector General's 
Office to conduct proper oversight. Can you quickly talk about 
how these additional resources can help to prevent the waste, 
fraud, and abuse?
    Ms. McFadden. In my many years at HUD, I heard from many 
disaster recovery grantees, so those units that were receiving 
Government. We want more HUD staff time. But the reality is 
that the HUD disaster recovery unit has far less than 20 people 
in it at any given moment. They are stretched very thin, and so 
they only can devote a limited amount of time. Allowing more 
permanent staff and additional resources for technical 
assistance and capacity building so that they can rely on 
experts to assist communities would absolutely strengthen the 
program.
    Chairwoman Wagner. Last, Ms. Lagrone, in your testimony, 
you noted the importance of making sure States knew what the 
regulations were for CDBG-DR allocations in order to begin work 
on their action plans. If the CDBG-DR Program was codified in 
law, how would that have changed your response to the most 
recent storms, for example? How long after Harvey did HUD 
publish Federal Register notices? How can the process be 
improved overall?
    Ms. Lagrone. Absolutely. Thank you, ma'am. The Federal 
Register for the appropriation that came out on September 8 
didn't come out until February, so, from September to February, 
we were looking at previous Federal Registers that we had.
    Chairwoman Wagner. That is 6 months.
    Ms. Lagrone. Yes, ma'am. We were looking to previous 
Federal Registers to try to guess at what that program was 
going to look like. We had an action plan developed. We were 
ready to go when that Federal Register came out, but there were 
some changes in the Federal Register that we weren't expecting, 
so we had to go back to the drawing board in a couple of places 
and rewrite language into our action plan. So that did delay us 
being able to publish the action plan and get it out.
    HUD can't allocate the funds until they have the data that 
they need to determine who needs how much money, and they were 
trying to compare us to Maria and Irma's events, and so they 
were waiting for data to become available. The most recent 
allocation and appropriation that you all have voted on had a 
60-day window that required HUD to at least start initiating 
awards. We are definitely in favor of that because, even if 
they had just given us $1 billion, $2 billion of the $5 billion 
we ultimately got, we could have started our programs months 
sooner, knowing full well that our event was a big enough event 
to qualify for at least that much money.
    Chairwoman Wagner. Thank you. My time has expired.
    The Chair now recognizes the gentleman from Missouri, our 
great State of Missouri, for 5 minutes, Mr. Cleaver.
    Mr. Cleaver. Thank you, Madam Chair.
    Thank you, Ranking Member Green.
    I would like to get a couple of you to respond to this. Mr. 
Costello, and Councilman, Senator, Commissioner Ellis, and Ms. 
McFadden.
    Fourteen years ago, or almost, when I was sworn in here, 
along with our Ranking Member, my wife and I went all over this 
area trying to find a place we could buy. One of our former 
members of this committee had said: Don't rent; why don't you 
buy?
    Foolishly, we didn't. I ended up moving over to the 
Methodist building across the street, and now I can't afford to 
live here. The areas where we looked at that time were, for 
Washington standards, very affordable. But now the Nationals 
have a baseball stadium there. There are restaurants I can't 
afford to eat in all over in that area, new apartments. 
Congresswoman Beatty lives there, and others.
    But the problem is that it is happening all over the 
country, and it is hard to argue against, but the 
gentrification is occurring.
    When we were first elected, Capitol Hill was quite 
different than it is today, and I find myself wondering, as I 
walk 333 steps from my apartment to the Capitol every day, 
where did those people go? Where are they living today?
    When I was mayor, we had two 500-year floods in 3 years in 
Kansas City. And as Ranking Member, as the Chair, Congresswoman 
Wagner will recall, it hit St. Louis and Kansas City. We are 
200 miles apart, but it devastated both cities. And one of the 
problems was in the areas where the flood hit, we didn't have 
the HUD policy, Ms. McFadden, that we have as it relates to 
one-for-one replacement, which is a HUD policy, has been a 
policy since maybe the 90's or--and that is, if you eliminate a 
HUD property, you have to rebuild. Every one you eliminate or 
rebuild, you have to rebuild another because when the storm hit 
New Orleans, we had that policy in place.
    Well, the point is we had--the problem is exacerbated when 
it is a flood. Even without a flood, it is a problem. So I 
wonder what is going on and what do we need to do as it relates 
to people who are messed over, first, by the flood, and then by 
the fact that, after it is over, they can't even find housing. 
Please, somebody help us.
    Mr. Costello. Well, Congressman, I will start. And our 
mayor has identified, when he came into office, what he calls a 
Complete Communities Program, where some of these communities 
that are possibly threatened from gentrification, that he wants 
to make sure that we provide services to that complete 
community and to help buildup that community, to make sure that 
those residents that live there will stay there, whether it is 
preflood or postflood. So that is what we are doing now. In 
particular, with some of these disaster relief funds, we are 
allocating projects into these communities.
    But it is not only infrastructure, which I am the 
engineer--I am builder; that is what I am going to be focusing 
on--but it is all those social services as well, even in terms 
of job creation, even in terms of food deserts; we are trying 
to make sure that these communities have all the services 
available to them anywhere throughout the city.
    But we do have, we continue to have the challenge of 
gentrification, and that is why the mayor said: Let's identify 
these six communities. Let's see if we can provide all the 
services we can to them, both public health, all the way 
through to infrastructure, and see if we can maintain the 
viability of that neighborhood.
    Mr. Ellis. I would just add, Congressman, it is a big 
challenge. Over our careers, on one hand, people will say: We 
want our neighborhoods to look like the more affluent 
neighborhoods.
    And then when we invest the resources and people come in 
who are more affluent, that leads to gentrification issues that 
some people have problems with.
    As it relates to disaster recovery, it is a particular 
problem because some people, when they--if they have an option 
of selling their home, where will they move? And for a place as 
big as Houston or Harris County, as you know, having gone to 
Prairie View, it is so spread out; that is a real challenge.
    I am encouraging my colleagues now that I am in county 
government, as I did when I was in city government, to think 
outside the box. On one hand, obviously, we look to the Federal 
Government for help. But on the other hand, sometimes in local 
communities, we have to be willing to put some skin in the 
game.
    So, as opposed to being a traditional County Commissioner, 
where I am just asking for money for roads, I am trying to 
convince my colleagues that we ought to use some of our money 
for affordable housing and some of the nontraditional things, 
instead of just looking to you all. And I did that when I was a 
council member, and each mayor has continued. They use about 
$20 million of local bond money. I think the last mayor on your 
watch cut it down to $18 million for affordable housing. So 
that is a big part of it.
    But, look, it is a clear dichotomy. On one hand, people 
want to enable it to be better. They want investments in those 
neighborhoods. And then when we do, they are upset because 
other people want to come.
    Chairwoman Wagner. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Colorado, the 
Vice Chair of the Oversight and Investigations Subcommittee, 
Mr. Tipton, for 5 minutes.
    Mr. Tipton. I thank Chairwoman Wagner.
    And I thank the panelists for all of your testimony here 
today.
    Ms. McFadden, I would like to be able to start with you. It 
is clear that the Department of Housing and Urban Development 
has less restrictive rules for States in its CDBG-DR 
distribution because the States are going to be the passthrough 
entity for those funds. And because of this structure, States 
are given, obviously, the maximum feasible deference for their 
interpretation for distributing those funds. Do you believe 
that HUD can responsibly provide for the CDBG-DR grantees with 
guidance and technical assistance with the maximum feasible 
deference standard in place?
    Ms. McFadden. Thank you for the question. And in the annual 
CDBG program, that goes out every year, not for disasters, that 
maximum feasible deference is strong and respected throughout 
the program.
    Generally, after disasters, if the States are going to be 
administering funds directly, HUD puts in place a very 
different standard for the administration, which is much more 
like the rules that cities and counties have to observe. I 
think that the program has done a great job of ensuring fiscal 
accountability in the administration. However, as the other 
panelists have said, and I think many members of the public 
would agree, it is absolutely time to consider these issues 
through notice and comment rulemaking and giving the public an 
opportunity to weigh in.
    Doing a permanent authorization of the program would allow 
notice and comment rulemaking which, for example, would go 
through clearance with the Office of the Inspector General, 
which could ensure that all the appropriate mechanisms are in 
place for the program.
    Mr. Tipton. Is it your sense HUD can monitor the CDBG-DR 
grantees to be able to ensure performance and compliance?
    Ms. McFadden. Yes, sir. Both the HUD Office of Community 
Planning and Development and the Office of the Inspector 
General monitor recipients of the funds.
    Mr. Tipton. OK. So you are comfortable with that. Might 
have a little issue, I think we might want to make sure that we 
are getting some of that accountability in place, but I would 
like to be able to maybe follow up with you on that just for a 
little more sense.
    And to your knowledge, has HUD ever overruled or otherwise 
told a grantee that its interpretation of the CDBG-DR statutory 
requirement is incorrect?
    Ms. McFadden. I think that there have absolutely been 
moments where interpretations of policy have been different, 
and HUD, ultimately, has ruled against the initial 
interpretation of the statute, if that is what you are asking 
sir, yes.
    Mr. Tipton. So we do have some examples. And do you think 
that more structure is needed from HUD and/or from Congress on 
the distribution of the CDBG-DR grants?
    Ms. McFadden. Yes, I absolutely do. I think communities 
would be served better and taxpayer dollars would be used more 
efficiently if more were done to formalize the program.
    Mr. Tipton. OK. Great. And just finally, do you have any 
suggestions on exactly how we might be able to bring some 
greater accountability to the block grant model after the funds 
have been distributed out to the grantees?
    Ms. McFadden. So, at this moment, HUD's greatest influence 
is in setting the rules and putting and approving the plans as 
they come in because HUD has limited resources to do the 
monitoring that I mentioned, and the Inspector General has 
limited resources do that monitoring. I think an investment in 
HUD's own administration could prove a real strengthening of 
the program because they would be able to look much more 
closely at the way the programs are being implemented.
    Mr. Tipton. Great. That is something again I think we would 
like to be able to follow up on, as we were talking just a 
couple of minutes ago in terms of that accountability and how 
the dollars are going to be spent. I think it is important that 
we do get that aid back.
    I think you noted in your testimony that you had assisted 
in Colorado. We aren't exactly an incredibly flood-prone State. 
Our water runs off pretty quick. It is steep out there, but the 
importance of being able to get that help but also to make sure 
that we are having the accountability, that the dollars are 
going where they need to go to the people that they need to 
help is something I think that is going to be important.
    So, again, Chairwoman, I thank you for holding this hearing 
and yield back my time.
    Chairwoman Wagner. The gentleman yields back.
    The Chair now recognizes my dear friend, the gentlelady 
from Ohio, Mrs. Beatty, for 5 minutes.
    Mrs. Beatty. Thank you to the Chairwoman and to our Ranking 
Member and to all of those who came as witnesses today. Let me 
just say, thank you for your written and your oral 
presentations. I found them very helpful.
    But let me just say--join my colleagues in thanking you. 
And I don't know to call you commissioner, State senator, and I 
am going to add another one, chief of staff, to our late and 
former good friend Congressman Mickey Leland. He would be very 
proud today with you going from chief to sitting here where he 
fought so hard for those who were in need, whether it was for 
food or housing. So thank you for the work you did then and 
what you are doing now.
    History certainly does repeat itself. Just for a little 
clarification to my Congressman to my left's statement about 
where I live, I am going to also include the Chairwoman because 
we live in the same building. And history does really repeat 
itself. Coming some 7 years later after Congressman Cleaver was 
here, we did the exact same thing. The only difference is where 
we live now is the most affordable to live now. And as we want 
to buy in that same vicinity, it is not affordable.
    So 7 years has made a huge difference to those. So, when I 
think about those who are in need and I think about those who 
have been displaced, certainly I know when you think about what 
happened in Katrina.
    And according to the National Low Income Housing Coalition, 
the United States has a shortage of some 7.2 million rental 
homes, affordable and available to extremely low-income 
renters.
    In my district, in the 3rd Congressional District in our 
capital of Ohio, Columbus, there are some 30,000 people 
currently on the waiting list for rental assistance with our 
city's public housing authority.
    So, when I think about Hurricane Katrina, and I visited New 
Orleans during that time and years afterward--so your point--7 
years later after Ike, we are still fighting for those folks to 
have housing. I didn't get to Texas or to Houston, but more 
recently, I was in Puerto Rico.
    So, when I think about all your statements, I guess I would 
like to ask each of you, if I could do one thing for this 
legislation that would help those in need, what would it be? So 
think about that.
    And then, to Ms. McFadden, I found it very interesting, in 
one of your statements in your testimony when you talked about 
that those residents should--that are--120 percent of the 
median should apply first for the small business loan before 
the CDBG. I don't have the exact quote from it here, but you 
are nodding so I assume you know what that reference is. How 
does that work for someone in Puerto Rico when you think about 
the poverty that is there? If you can quickly give me that, 
then I will go to Mr. Ellis and the other witnesses for the one 
thing.
    Ms. McFadden. Thank you, Congresswoman. And I think you 
went immediately to the caveat I would put on that 
recommendation.
    So, for the other members of the subcommittee, my 
recommendation would be that before grant dollars could flow to 
a family at 120 percent of area median income or higher for the 
need that they have left after any insurance or other 
assistance, that they apply for a below-market homeowner loan 
from the Small Business Administration.
    And in most communities, that means that the Small Business 
Administration will make a decision about whether that family 
can afford to repay because I believe, as a matter of good 
public policy, that the taxpayer dollars should go first to 
those who are unable to use other resources that they can repay 
on their own before assisting the general public.
    The challenge in Puerto Rico is that the area median income 
is so low that you may still find people below the poverty 
level. So I would look forward to some discussion about how to 
make it workable there.
    Mrs. Beatty. OK. Thank you.
    Others?
    Mr. Ellis.
    Mr. Ellis. I became Congressman Leland's AA in 1981. It was 
a long time ago when you called a chief of staff AA. Things 
were--we were so poor, and he was so poor; I was his AA and his 
roommate. If we had bought a place in Waterside Towers back 
then, I would be a wealthy county commissioner now.
    Mrs. Beatty. Yes.
    Mr. Ellis. I think the most important thing you can do is 
preserve that 70 low- and moderate-income standard with the 
discretion being given to the Secretary to reduce it to the 50 
percent, but it would be transparent to have to make the case. 
I just want to stress that point.
    My years in city and State and county government, folks who 
need stuff the most generally are not the best organized to 
advocate for themselves. And I think we would be best pressed 
to go ahead and take it at 50 percent every time if we had that 
discretion.
    Mrs. Beatty. Thank you.
    My time is over. So I am sorry, but I yield back.
    Chairwoman Wagner. The gentlelady yields back.
    And we do, in our legislation, currently keep that 70 
percent.
    So the Chair now recognizes the gentleman from Georgia, Mr. 
Loudermilk, for 5 minutes.
    Mr. Loudermilk. Thank you, Madam Chair.
    And I appreciate the panel for being here.
    This is an important issue. It isn't probably one that is 
going to make the headlines of the New York Times today, unless 
the Chairwoman decides to tweet it out, then maybe we would 
get--
    Chairwoman Wagner. I am all over that.
    Mr. Loudermilk. But this is very important, especially in 
the time that we are in. We have--I think it is time for us as 
a Congressional body to relook at the way we do a lot of 
things, because some things that we have done in the past have 
not worked very well.
    And we have driven ourselves to a $21 trillion debt, so we 
can no longer look at just funding our way out of problems 
without making significant changes. And one of the things I 
think we have to do is look at how we can make the dollars that 
we spend more effective and make them go further.
    And I remember something that my parents used to tell me 
and my grandparents, and I think they had a lot of wisdom, that 
if we went back to those old sayings, they can help us out a 
lot. And one of those is, ``An ounce of prevention is worth a 
pound of cure.''
    And, Ms. McFadden, you brought up in your testimony the 
idea of mitigation, which is something we even looked at the 
National Flood Insurance Program of mitigation. And that is 
intriguing because--I would like to know your thoughts on 
implementing mitigation standards such as elevation and 
construction standards because, to me, you can--I would think 
you can spend a whole lot less money preventing a disaster than 
actually rebuilding after a disaster. So I would like to get 
your thoughts on that.
    Ms. McFadden. Elevation and construction standards, 
absolutely a critical piece at the individual property level. 
And I would also encourage, in thinking about any permanent 
authorization or future appropriations, some guidance to HUD on 
how to think about the balance between individual properties 
and communitywide infrastructure projects.
    There is a tension in how to protect the entire community 
and how to go building by building. So the elevation standards 
do keep people in properties safer from harm when the next 
storm comes, but sometimes doing a communitywide solution may 
be more effective over--across the board.
    Mr. Loudermilk. So is it your understanding or your belief 
that we could save a substantial amount of money by investing a 
little bit of money on the front end?
    Ms. McFadden. Absolutely. And I applaud Congress in the 
most recent CDBG-DR allocation for dedicating funds for 
mitigation and making a true investment in doing that so that 
we are not paying again for the same places.
    Mr. Loudermilk. I appreciate that.
    And another area that I think that we can make the money 
that we have go further, especially in certain communities, 
comes to the environmental standards. We had a recent event 
back home where there was a development going in, but it was 
something the entire community wanted to bring in.
    And I went to those who were doing this. It was several 
private and nonprofit organizations coming in, and I said, 
``What can we do to help,'' because there was going to have to 
be a lot of infrastructure changes, including road 
modifications, building roads. I said, ``What can I do in 
Congress to help?'' And they came to me and said, ``Please, 
don't do anything,'' and I said, ``Why?'' They said, ``We can't 
afford to receive Federal funding for these road projects 
because they would take too long and cost us too much money,'' 
and I said, ``Why?'' They said, ``We can build these roads for 
60 percent less money and 60 percent faster if we just use 
State funds because we avoid the onerous reporting requirements 
and study requirements of these environmental standards.''
    Do you see that we can save some money by streamlining some 
of these processes that we go through right now regarding 
disaster response and recovery?
    Ms. McFadden. That is a frustration that has been shared by 
many communities around the country as they have tried to put 
State dollars together with Federal dollars, where even across 
the Federal Government, agencies may have different or 
conflicting standards in implementing the same environmental 
protection laws and historic preservation and related laws.
    So, absolutely, there are opportunities for streamlining. 
And over time, through the appropriation of CDBG-DR dollars, 
Congress has made a little bit more flexibility available so 
that if, for example, HUD dollars follow a FEMA environmental 
review, then there is some streamlining there.
    But there still is much opportunity to make it faster, 
particularly in the realm of large-scale infrastructure 
projects, as you mentioned, and in single-family home 
renovations.
    Mr. Loudermilk. Thank you.
    I yield back.
    Chairwoman Wagner. The gentleman yields back.
    The Chair now recognizes the gentleman from Texas, Mr. 
Gonzalez, for 5 minutes.
    Mr. Gonzalez. I am yielding to Mr. Green, I think.
    Mr. Green. I thank the gentleman very much.
    I would like to, if I may, just compliment you, Mr. 
Gonzalez, on your outstanding work on the committee. We greatly 
appreciate what you have done to benefit not only your 
constituents in your Congressional district but also the State 
of Texas. You have truly been one of the outstanding assets.
    Madam Chair, if I may, I would like to introduce into the 
record, without objection, of course, a letter that is dated to 
The Honorable Director Mick Mulvaney, Office of Management and 
Budget.
    And if I may, I would like to also read one sentence of the 
six-paragraph letter that captures the essence of what the 
letter is all about. It reads, ``We write today urging you to 
approve the direct allocation of the appropriated share of 
Community Development Block Grant-Disaster Relief Funds.''
    That is an important sentence. It is an important sentence 
directed to the Director of the Office of Management and Budget 
because of who has signed the letter. The letter is signed by, 
of course, The Honorable Kevin Brady, who is a Member from 
Texas; by The Honorable Greg Abbott, the Governor of the State 
of Texas; The Honorable John Cornyn, United States Senator from 
Texas, The Honorable Ted Cruz, United States Senator from 
Texas; The Honorable George P. Bush, land commissioner, State 
of Texas; Harris County Judge Ed Emmett--The Honorable Harris 
County Judge Ed Emmett; The Honorable Mayor Sylvester Turner; 
and those of us who are from the Houston delegation, including 
Mr. Culberson, Mr. Gene Green, Ms. Jackson Lee, and Mr. McCaul, 
Mr. Olson, Mr. Poe. And I am honored to be a person who has 
signed it as well.
    May I so enter?
    Chairwoman Wagner. Without objection.
    Mr. Green. Thank you, Madam Chair.
    Madam Chair, just as a matter of housekeeping, I would like 
to let people know that, earlier, when I spoke about my having 
had a degree--well, not degree. That is what I want to clear 
up--having had an association with engineering, I did attend 
engineering school, but I want people to know that I am a 
dropout. I really don't want to have to deal with tomorrow the 
press accosting me about, ``I thought you said you didn't 
finish college.''
    Chairwoman Wagner. So noted in the record.
    Mr. Green. Thank you.
    Now, I am also pleased that Texas Southern University at 
the Thurgood Marshall School of Law saw something in me that I 
didn't see in myself and gave me the opportunity to attend law 
school. So I do have what we say--we call a juris doctorate, 
which is really a juris doctor. I am honored to have such a 
degree.
    Moving along, Mr. Martin and Ms. McFadden, when I mentioned 
earlier the prowess of the people who had the hands-on 
experience, I in no way wanted to minimize the intellectual 
prowess that you bring to this forum that is exceedingly 
important, and you have both given me much to consider.
    So let me go to you, if I may, Ms. McFadden. You mentioned 
something that I am fascinated with this concept of an off-the-
shelf--regulations that could benefit smaller venues. Could you 
elaborate, please?
    Ms. McFadden. Thank you. I would be pleased to.
    The flexibility of the regular CDBG program allows the 
1,200 jurisdictions that receive the funds to design programs 
the way they want to as long as they fit within the guardrails. 
But this means that there are many, many choices and challenges 
they have to face in trying to scale up their existing programs 
when they move from CDBG to CDBG disaster recovery.
    And then they have to question whether HUD will approve the 
choices they are making. If HUD were to do the design upfront 
and pre-approve programs after a disaster when the elected 
officials and others administering Government programs are 
facing very difficult choices, they could have certainty in a 
safe harbor in knowing that they have the best program 
available to them and adopt that wholesale.
    Mr. Green. Have you had any experience in crafting such a 
paradigm?
    Ms. McFadden. After Hurricane Sandy, HUD made some model 
programs available but without doing any notice and comment 
about how to improve them and I think got them available a 
little bit too late for communities to really adopt because 
they were already off and running with their own programs. 
There is something to build on, but I think it needs some 
further improvement before it can really be ready to go.
    Mr. Green. Thank you.
    Now, as a good Ranking Member, I have to do something that 
is very important to one of the members from my side. Mrs. 
Beatty asked about that one thing that you would have us focus 
on, and a couple of you didn't--perhaps as many as three--
didn't have the opportunity to respond to that question. So it 
is my duty now to make sure that that gets taken care of.
    So we will start with Mr. Costello, the one thing, please. 
And by the way, you have about 19 seconds, over 19 seconds.
    Mr. Costello. Thank you, Congressman.
    And so, to highlight community expectation, the one thing 
would be to expedite funding directly to the recipient so that 
we can deliver the services that we need to deliver, whether it 
is housing, to get people back into housing, or whether it is 
infrastructure to mitigate for future floods.
    Mr. Green. So as not to abuse my time, Madam Chair, I will 
yield back because I will have 5 additional minutes later.
    Chairwoman Wagner. The gentleman yields back.
    The Chair now recognizes the gentleman from Arkansas, Mr. 
Hill, for 5 minutes.
    Mr. Hill. I thank the Chairman and the Ranking Member to 
allow an interloper on your committee today to come and hear 
this very interesting presentation. And thanks for holding this 
oversight hearing.
    This is such important work. And the need for flexibility 
and speed in the cities, which you have all talked about, and 
the counties is so important, and that has sort of been one of 
the positive things over many, many years of the CDBG program.
    But in this disaster arena, we have--sometimes it is not 
shaped according to standard policy, and, therefore, there are 
a lot of things that get missed between the goals of the 
program and the success of the program.
    So I am here today on behalf of the taxpayers to ask, how 
do we safeguard these funds and not have GAO reports that tell 
us that we are still looking for $750 million of CDBG disaster 
funds after Katrina that cannot be accounted for?
    So let's--Mr. Costello, maybe talk from the city of 
Houston's point of view, Mr. Ellis, too: How do we get the 
money to a public entity that has public accountability to the 
taxpayer and then out--but out in an effective way where it is 
not used for an unintended purpose or it is just not handled 
right? $750 million is a lot of money, and I think taxpayers 
really--we owe it to them to not let that happen again. Mr. 
Costello.
    Mr. Costello. And that is a very valid question, 
Congressman. And I think it really--it depends upon the 
expertise of the recipient. As Commissioner Ellis had 
described--and I did as well--the city is a very large 
organization. We are the fourth largest city. We have 22,000 
employees. Combined, public works and housing, we have over 
4,500 employees. We have the ability and the expertise to make 
sure that we are in full compliance, assuming we give direct 
allocation.
    The issue that I am concerned about as an engineer in 
providing the mitigation dollars for infrastructure is the 
community expectations on--and how long it is taking us to get 
to a particular project and to implement that project.
    Personally, I am not looking forward to August 2018 when 
the public and the media say to the city and the county, what 
have you done post-Hurricane Harvey? And we really haven't been 
able to show very much, other than maybe modifying some of our 
building standards for future construction, elevating them 
above the base flood elevation so they protect those future 
houses. We still have to address the houses that were flooded 
themselves.
    But to get back specifically to your question, it is really 
a function of the expertise of the recipient.
    Mr. Hill. Well, I saw it. I was a volunteer in helping 
rebuild houses in Lacombe, Louisiana, after Katrina. And people 
were going back in. They didn't have a mortgage, so they 
weren't in the flood program, but they just went right back in 
their same house that were built below the floodplain.
    And a lot of the misallocated money, I think, in CDBG, in 
that time period, DF, were moneys that were extended to people 
for raising above the base floodplain, but it wasn't spent for 
that purpose. And, yet, we know that that--for taxpayers in the 
flood program and for city, county taxes, property taxes, and 
family livelihood, that that is an important feature.
    So I just am interested, from an auditor point of view, how 
do we--Mr. Ellis, maybe you could take a shot at--how do we 
maintain--Houston, Harris County--I am a former Harris County 
resident. Thank you very much. I lived there during Hurricane 
Allen, long time ago. But how do we maintain that audit trail? 
How do we convince the American taxpayers that we will get it 
out and we will make a lasting improvement and not see the 
money squandered?
    Mr. Ellis. Congressman, it is a very good question.
    I am a former resident of Louisiana, by the way. I attended 
Xavier, my freshman year. But I think the key is the clawback 
provisions, is transparency, is, when you see a problem, do 
just what you are doing now: Raise it.
    Look, when I was running for city council in 1983, the city 
had to give back some CDBG money. And I ran on it. And then, 
when I got there, I did realize how difficult it is to spend 
money and spend it the right way.
    So, if there is a direct allocation, all of the strings 
should be on a city or on a county that would be there if it 
went through the State. But it is that transparency. If I could 
figure out how we could end corruption in public life, I would 
be over there in the White House. I would run myself. But you 
have to stay on us. It is that transparency, regardless of who 
gets the money.
    Mr. Hill. Well, I think that is important for OMB and for 
HUD and for our State and local officials. And we look forward 
to partnering with you, and we thank you for being here today.
    Thank you, Madam Chair.
    Chairwoman Wagner. The gentleman yields back.
    I now want to recognize, to close us out, the Ranking 
Member, Mr. Green, for 5 minutes.
    And I want to, in advance, give my apologies. I have a 
markup in Foreign Affairs, a very important genocide and 
atrocities piece of legislation that I have been working on for 
some time. So I am going to dash to Foreign Affairs. I will 
leave it to the Vice Chair, Mr. Tipton, to close things out.
    But I want to yield to the gentleman, the Ranking Member 
from Texas, Mr. Green, for 5 minutes and thank him for his 
collaboration on this endeavor.
    Mr. Green. Thank you, Madam Chair. And I greatly respect 
the fact that you have multiple assignments today, which is not 
unusual for you. You seem to have a multiplicity of things that 
you are doing quite constantly. So I appreciate greatly what 
you have allowed us to accomplish today and hope that things 
will go well with you in your next venue.
    With reference to the one question, let me now go to, I 
believe there may be one or two others. If you have not 
answered that one question--all right. Would you kindly do so?
    And I think, Mr. Martin, did you have an opportunity to 
respond to it?
    Dr. Martin. I have not. I am happy to answer first.
    Mr. Green. OK. We will start--
    Dr. Martin. So Congresswoman Beatty's earlier comments 
regarding the experiences of community development and 
community change speak directly to CDBG-DR's role as being this 
bridge between disasters and what is actually happening in the 
communities before a disaster occurs and long after.
    So I would encourage the move toward thinking of the 
eligible activities in CDBG-DR, if it were to reach a permanent 
statutory--be given permanent statutory authority to include 
those multifamily rental housing activities that are currently 
eligible in CDBG-DR and focus on those as much as the other 
single-family recovery programs.
    Mr. Green. Thank you.
    The lady.
    Ms. Lagrone. So I definitely agree with my colleagues here. 
The flexibility of the CDBG program is what makes it really, 
really the program to put these disaster recovery funds into. 
The flexibility in the program allows us to tailor our recovery 
to the needs that we suffered, and it allows us to do exactly 
what a city needs to be done versus a rural area versus someone 
who is impacted directly by a hurricane or someone who sat 
underwater for months.
    So the CDBG program is the right program for this. But the 
CDBG regulations right now do not define disaster recovery. So 
I think a permanent regulation, keeping all of the flexibility 
possible for the CDBG-DR Program would be the absolute answer 
to this ongoing funding that we are going to continue to need, 
particularly in the State of Texas.
    Mr. Green. Thank you very much.
    I have had the opportunity to give testimony in my 
lifetime, and at the end of the hearing, there was something 
that I really wish that I had said that I did not say because I 
thought it was exceedingly important.
    So what I would like to do now is give each of you an 
opportunity, if there is something that you think that you 
didn't say that you really would like to say so that you won't 
leave and have that afterthought, if you will kindly make 
mention of it at this time. And if you can be terse and 
laconic, I will get through so that everybody will have an 
opportunity, if you would.
    Mr. Costello. Thank you, Congressman.
    I think when we talk about HUD and we talk about disaster 
relief, we have to look at it both in terms of housing and also 
in terms of mitigating infrastructure. And I do appreciate what 
the Federal Government is doing of focusing on both those 
issues. But thank you.
    Mr. Green. Thank you.
    Mr. Ellis. Thank you, Congressman. Two words: More money.
    I will yield back the balance of my time.
    Mr. Green. Yes.
    Ms. Lagrone. I agree as well. Mitigation is very important 
in these programs. As we have been improving homes, we have 
seen the need to not have to go back to those homes again. As 
we have improved infrastructure, we have seen that homes don't 
flood any longer because of the infrastructure that we were 
able to put in place with these funds.
    Dr. Martin. I would recommend better integration across the 
Federal agencies that deal with disaster and response 
assistance. It is certainly clear between HUD, CDBG-DR, and the 
FEMA programs, and particularly relating to the increase of 
resources and funding going to mitigation at HUD, coordination 
with FEMA's mitigation programs would also be helpful.
    Ms. McFadden. And I recommend that Congress act with 
urgency. 2017 was a particularly bad year for disasters, but we 
know that bad years will come again. So act now to make these 
changes to the program and ensure that, as the last source in 
line, that CDBG-DR dollars are available to reach the people 
who need them the most.
    Mr. Green. Thank you.
    And with my last 30 seconds, I will thank all of you for 
appearing today, want you to know that you have been 
exceedingly helpful. My staff has taken copious notes, and we 
will be visiting about some of the things that we can integrate 
into legislation such that it won't just be an appearance. It 
will be an opportunity for you to have made a difference.
    Again, I thank the Ranking Member--excuse me. I thank the 
Chairwoman.
    And I also want to thank Mayor Turner. When I approached 
him about attending and giving his testimony, he said, ``I am 
going to send the best person and that would be my czar here.'' 
Those were his words. So, Mayor Turner, thank you very much for 
sending the czar, and thank all of you for your attendance.
    And, again, to the Chairlady, I thank you for the 
cooperation that we have received. I am looking forward to 
bringing this to fruition. Thank you, everybody.
    Mr. Tipton [presiding]. Thank you, Ranking Member.
    And I would like to thank all of our witnesses again for 
your testimony today.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    This hearing is now adjourned.
    [Whereupon, at 11:32 a.m., the subcommittee was adjourned.]

                            A P P E N D I X


                              May 17, 2018

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
